            OFFICE OF
     THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION




        SINGLE AUDIT OF THE
        STATE OF COLORADO
     FOR THE FISCAL YEAR ENDED
            JUNE 30, 2006

    November 2007   A-77-08-00005




  MANAGEMENT
ADVISORY REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                    SOCIAL SECURITY
MEMORANDUM

Date:   November 28, 2007                                                 Refer To:

To:     Candace Skurnik
        Director
        Audit Management and Liaison Staff

From: Inspector General

Subject: Management Advisory Report: Single Audit of the State of Colorado for the Fiscal Year
        Ended June 30, 2006 (A-77-08-00005)


        This report presents the Social Security Administration’s (SSA) portion of the single
        audit of the State of Colorado for the Fiscal Year ended June 30, 2006. Our objective
        was to report internal control weaknesses, noncompliance issues, and unallowable
        costs identified in the single audit to SSA for resolution action.

        The Colorado State Auditor performed the audit. The Department of Health and Human
        Services (HHS) desk review concluded that the audit met Federal requirements. In
        reporting the results of the single audit, we relied entirely on the internal control and
        compliance work performed by the Colorado State Auditor and the reviews performed
        by HHS. We conducted our review in accordance with the Quality Standards for
        Inspections issued by the President’s Council on Integrity and Efficiency.

        For single audit purposes, the Office of Management and Budget assigns Federal
        programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
        Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
        CFDA number 96. SSA is responsible for resolving single audit findings reported under
        this CFDA number.

        The Colorado Disability Determination Services (DDS) performs disability
        determinations under SSA’s DI and SSI programs in accordance with Federal
        regulations. The DDS is reimbursed for 100 percent of allowable costs. The Office of
        Self Sufficiency, under the Colorado Department of Human Services (CDHS), is the
        Colorado DDS’ parent agency.
Page 2 – Candace Skurnik

The single audit reported that CDHS inadvertently omitted the debarment and
suspension certification clause from some State Fiscal Year 2007 contracts. As a
result, CDHS had no assurance that contractors were not suspended or debarred from
participation in Federal programs (Attachment A, page 1). The corrective action plan
indicated that CDHS would verify the presence of the certification clause in future
contracts (Attachment A, page 2).

The Office of the Inspector General is currently conducting an audit of Administrative
Costs Claimed by the Colorado DDS (A-07-07-17136) that covers the same time period
as this single audit. The administrative cost audit will review the Colorado DDS’
procedures for ensuring that contractors are not suspended or debarred from
participation in Federal programs. Accordingly, we are not making a recommendation.

The single audit also disclosed the following findings that may impact the Colorado
DDS’ operations although they were not specifically identified to SSA. I am bringing
these matters to your attention as they represent potentially serious service, delivery,
and financial control problems for the Agency. Specifically, CDHS did not have:

•   An approved methodology or written procedures for calculating leave without pay
    adjustments (Attachment B, pages 1, 2, and 3).

•   Proper internal controls over purchase cards (Attachment B, pages 4 through 8).

•   Adequate internal controls over travel expenditures (Attachment B, pages 9 and 10).

If you have any questions contact Ken Bennett at (816) 936-5593.




                                                 S
                                                 Patrick P. O’Carroll, Jr.

Attachments
Attachment A
  Page 1 of 2
Attachment A
  Page 2 of 2
Attachment B
 Page 1 of 10
Attachment B
 Page 2 of 10
Attachment B
 Page 3 of 10
Attachment B
 Page 4 of 10
Attachment B
 Page 5 of 10
Attachment B
 Page 6 of 10
Attachment B
 Page 7 of 10
Attachment B
 Page 8 of 10
Attachment B
 Page 9 of 10
Attachment B
Page 10 of 10
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
